U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 24, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Campbell, et al. v. United States, No. 19-1252
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 20, 2020.
The government’s response is now due, after one extension, on June 29, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 29, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1252
CAMPBELL, CALLAN, ET AL.
USA

ROBERT H. THOMAS
DAMON,KEY, LEONG,KUPCHAK,HASTERT
1600 PAUAHI TOWER
1003 BISHOP STREET
HONOLULU, HI 96813
808-531-8031
RHT@HAWAIILAYWER.COM

